September 30, 2004

MEMORANDUM FOR:           EMILY STOVER DeROCCO
                          Assistant Secretary for Employment
                           and Training




FROM:                     ELLIOT P. LEWIS
                          Assistant Inspector General
                           for Audit


SUBJECT:                  Job Corps Performance Measurement Outcomes
                          Report Number 09-04-004-03-370

This memorandum transmits the interim audit results from our ongoing audit of
Job Corps’ processes for ensuring the reliability of performance outcomes
reported by center operators and Career Transition Services (CTS) providers.
We have identified significant management control weaknesses and recommend
that Job Corps take immediate corrective actions. Our audit work in this area is
continuing and additional audit reports will be issued as needed.

In response to ETA’s comments on our draft report, we have removed references
to audit work performed at one Job Corps center. A separate report will be
issued on the results of our work at this center. The results of our work at the
center do not change the finding and recommendations reported herein.

Results

Onsite assessments conducted by Job Corps Regional Offices are a major
component of Job Corps’ performance data validation system. We found that
Job Corps did not effectively validate reported performance outcomes during
onsite assessments conducted in at least three Job Corps regions. As a result,
Job Corps did not have reasonable assurance that performance outcome data
reported by contracted center operators and CTS providers in the three regions
were accurate and complete. Accurate and complete data are particularly
important under performance-based contracts in which center operators and CTS
providers are paid bonuses and incentive fees for meeting or exceeding specified
performance goals. Additionally, the amount of reimbursable expenses paid to
center operators is based on the centers meeting specific student attendance
goals. Unreliable performance data could also impact Job Corps’ ability to make


                                       1
sound management decisions and provide effective oversight of center and CTS
operations.1

The “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-
21.3.1, November 1999) state that internal control serves as the first line of
defense in preventing and detecting errors and fraud. Effective internal controls
should provide reasonable assurance that the objectives of the agency are
achieved. This includes the use of the entity’s resources and the effectiveness
and efficiency of operations. The standards also state that as programs and
operating environments change, managers must continually assess risk and
evaluate their internal controls to assure that control activities being used are
effective and kept up to date. Effective internal controls include validating the
propriety and integrity of both organizational and individual performance
measures and indicators.

Current Performance Data Validation Process Places
Significant Reliance On Onsite Assessments

Job Corps places significant reliance on onsite assessments, conducted by Job
Corps regional staff, to ensure that performance outcomes reported by individual
centers and CTS agencies are reliable. Job Corps’ performance data validation
system consists of five major components, summarized as follows:

     1) Data Entry and Data Element Validation Methods via the National
        Job Corps Data Center. The automated Management Information
        System (MIS) immediately rejects incorrect, partial, or empty transactions.

     2) Formal Data Validation by Independent Contractor. A third party
        vendor surveys employers and students to validate job placements.

     3) Specialized Data Analysis Support. The Data Integrity Group at the
        Job Corps National Office analyzes data elements at the program level to
        identify patterns that could be associated with potential data validity
        issues.

     4) Third Party Audits. The Office of Inspector General and General
        Accounting Office may conduct audits and provide strategies to improve
        program efficiency and effectiveness.

     5) National and Regional Office Oversight/Monitoring and Compliance
        Analysis. The National Office tracks and analyzes performance data to
        identify outcome fluctuations and trends. Regional Offices monitor every

1
 See Attachment 1 for details on how reported performance affects reimbursed operating expenses,
performance incentives and bonuses, and center supervision. Details on our audit objective, scope, and
methodology are also provided.



                                                    2
       outreach and admissions, center, and career transition services contract
       for compliance with Job Corps policy. Regional Job Corps staff conducts
       onsite assessments at least once every two years, documents any
       findings, and submits reports to the National Office. Job Corps’ process
       document states that performance data entered into Job Corps’ MIS must
       be supported by the appropriate documentation. It also states that the
       onsite assessments always include a thorough review of center records to
       ensure that student files contain the documentation required to support
       reported performance.

Based on our review of the performance data validation process and discussions
with Job Corps officials, we determined that the review of supporting
documentation performed during the regional onsite assessments is critical for
ensuring that performance outcomes reported by individual centers and CTS
agencies are reliable. Therefore, we focused our initial review on determining
whether the onsite documentation reviews provided reasonable assurance that
reported performance data were accurate and properly supported.

Program Assessment Guide (PAG) Does Not
Require Performance Data Validation

Job Corps’ performance data validation process document states that onsite
assessments always include a thorough review of center records that support
reported performance. However, Job Corps’ written procedures do not require
regional staff performing onsite assessments to conduct these reviews. Job
Corps published the PAG (revised April 2002) to assist Job Corps’ regional staff
with conducting onsite assessments. The PAG provides regional staff with
guidelines for assessing the quality of services provided by center and CTS
operators and validating performance outcomes. The PAG states that a
thorough review of records is key to verifying outcomes and compliance
requirements. It also makes suggestions regarding the types and quantities of
documents to review. For example, the PAG suggests that regional offices do
the following:

   •   Plan: As part of the pre-onsite analysis, analyze available reports and
       data and identify operational areas needing special attention, determine
       documentation examination needs, and prepare approach and techniques.
   •   Sample: As part of the onsite information gathering and examination,
       assess a sample of documents. Generally, a 10 percent sample is
       sufficient. The PAG cautions that the assessor be careful to seek a
       balanced approach. For example, one record with missing data is not an
       indicator of lack of compliance or quality.
   •   Review records: Suggested steps include asking for related operating
       procedures, keeping in mind questions, such as, whether or not
       compliance requirements are being met, and writing notes regarding
       conclusions reached.


                                        3
    •   Document results: As part of the onsite information gathering and
        examination, based on data obtained, document results of the
        assessment.

We interviewed Job Corps’ management and staff at regional offices in Atlanta
and San Francisco to determine whether the PAG provided sufficient guidance to
ensure center records supporting reported performance were reviewed and
performance data were reliable. The managers and staff at both regions told us
that because the PAG was guidance rather than policy, they were not required to
perform the steps noted in the PAG related to performance data reliability. They
said that the focus of their pre-onsite analysis and onsite assessments was to
assess the quality of services provided by the center. Therefore, they focused
their resources on areas where performance reporting indicated center
operational weaknesses. Unless reported performance had changed
dramatically, or other red flags arose, resources would not have been allocated
towards a thorough records review.

We reviewed the most recent regional assessment reports for 35 of the 40
centers supervised by Job Corps’ Atlanta, San Francisco, and Seattle regions2
and found that testing of performance data reliability was not discussed in any of
the 35 reports. The 35 assessment reports reviewed represented 30 percent of
Job Corps’ 118 centers. Issues related to performance outcomes, such as poor
leave or training documentation, were raised in 14 of the reports reviewed.
However, the validity of recorded leave and training was not questioned and
conclusions regarding the reliability of the related performance outcomes were
not made.

OIG Conclusion

Job Corps places significant reliance on onsite assessments to ensure
performance outcomes reported by individual centers and CTS agencies are
accurate and properly supported. However, the validity of reported performance
outcomes was not tested by Job Corps regional staff during onsite assessments
performed in at least three Job Corps regions. This occurred because the
assessment guidance provided to regional staff recommends but does not
require the testing of reported performance outcomes. We believe this control
weakness is systemic and may affect Job Corps’ ability to ensure performance
data reliability in other Job Corps regions. Improvements to the PAG and onsite
assessments are needed to ensure the validity of performance outcomes data
reported by centers and CTS agencies. Under performance-based contracts,
reported performance outcomes have a direct effect on the amounts paid to
contracted center and CTS operators for incentive fees and bonuses.


2
  The Seattle region was combined with the San Francisco region during our audit. In CY 2004, Job Corps
reorganized from nine to six regions.



                                                   4
Additionally, the amount of reimbursable expenses paid to center operators is
based on the centers meeting specific student attendance goals.

Recommendations

To improve the effectiveness of controls over performance reporting, we
recommend that the Assistant Secretary for Employment and Training ensure
that Job Corps requires staff conducting onsite assessments to:

       1. Test performance outcomes data reported by center and CTS
          providers using statistical sampling methodologies.

       2. Retain records that document the testing performed and the basis for
          any conclusions.

       3. Take appropriate action to recover any overpayment made to the
          contractor as a result of misreported performance data.

ETA’s Comments and OIG’s Response

The OIG provided a draft of this report to Employment Training Administration
(ETA) management for review and comments. In response to ETA’s comments,
we have made technical clarifications in the report where appropriate and we
have removed references to work performed at one Job Corps center. The
complete text of ETA’s comments is provided in Attachment 3.

Recommendation 1

ETA management concurred with Recommendation 1. Job Corps will amend the
PAG to include mandatory activities for testing the validity and reliability of
performance outcome data. A data testing evaluation model using statistical
sampling methodologies will be developed and described in detail in the PAG.
National office staff and regional office program managers will be trained to
administer performance data testing under the guidance of a third-party expert
evaluator, embedded in center assessment teams.

The OIG believes these actions will meet the intent of the recommendation and,
therefore, we consider the recommendation resolved. To close the
recommendation, Job Corps needs to provide OIG with the amended PAG that
includes mandatory activities for testing the validity and reliability of performance
outcome data, and to provide documentation that the staff and program
managers have been trained to administer performance data testing.




                                          5
Recommendation 2

ETA management concurred with Recommendation 2. Job Corps will develop
and implement a documentation system in support of the performance data
evaluation testing model. All national office and regional office staff will be trained
in implementation of the new documentation system and requirements.

The OIG believes these actions will meet the intent of the recommendation and,
therefore, we consider the recommendation resolved. To close the
recommendation, Job Corps needs to provide OIG with documentation that the
(1) system has been implemented and (2) national and regional office staff have
been trained in the new requirements.

Recommendation 3

ETA management concurred with Recommendation 3. Job Corps will establish
procedures and parameters for recovery of identified overpayment made to a
contractor as a result of misreported performance data. The policy will require
that when sufficient misreporting is detected with a sample-based data testing
system during a center review, a 100 percent record analysis will be conducted
to ascertain the dollar amount of any overpayment made to the contractor. Once
the total amounts are determined, Job Corps will take the necessary action to
recover the funds.

The OIG believes these actions will meet the intent of the recommendation and,
therefore, we consider the recommendation resolved. To close the
recommendation, Job Corps needs to provide OIG with a copy of the new policy
and procedures.

                                      -- -- -- --

We request a response to this report within 60 days. It is your responsibility to
promptly transmit the attached report to program officials for resolution.

If you have any questions concerning this report, please contact Linda Darby,
Regional Inspector General for Audit in San Francisco, at (415) 975-4030.


Attachments (3)




                                           6
                                                                   Attachment 1

              Background, Objective, Scope and Methodology

Background

Job Corps has 118 centers located in 46 states, the District of Columbia, and
Puerto Rico. Contracted center operators and nonprofit organizations manage
and operate 90 Job Corps centers under agreements with the U.S. Department
of Labor. To support the centers, Job Corps also has CTS and outreach and
admissions (OA) operations at hundreds of locations around the country. Center
and CTS/OA contractors may operate multiple locations. In total, 27 center
operators and 41 OA/CTS contractors are associated with the Job Corps
program. Budget planning documents for Program Year 2002 indicate that
planned spending for contracted services totaled at least $998 million, or 74
percent of Job Corps’ $1.33 billion total estimated budget.

Performance-Based Contracting

Job Corps Regional Offices are responsible for selecting and supervising
contracted center operators and CTS providers. In May 2002, Job Corps began
implementing performance-based contracts that tie option years, incentive fees,
and bonuses directly to contractor performance. Performance data is generally
entered by center operators and CTS providers into Job Corps’ Outcome
Measurement System (OMS). Overall OMS ratings are compared to a National
Performance Range established annually by the Job Corps National Director.
Contracted center operators earn an incentive fee based on where their center’s
OMS rating falls within the National Performance Range. Centers performing
higher within the National Performance Range are paid larger incentive fees.
Furthermore, those contractors whose performance exceeds the top of the
National Performance Range are eligible to earn a Performance Excellence
Bonus.

The Center Report Card is one of two key OMS reports used to assess center
performance. Incentive fees and performance excellence bonuses paid out to
center operators are contingent upon performance reported on the OMS-10. The
OMS-10 provides performance information regarding students’ achievement of
retention goals, academic and vocational credentials, initial job placements and
continued placements at 6- and 12-months following initial placement.

The Center Quality Report Card is the second key OMS report used to assess
center performance. The Center Quality Report Card is used to assess the
program’s quality and services offered at all Job Corps centers nationwide. The
Quality Report Card supplements the Center Report Card by providing
performance information on aspects of center life that otherwise would not be a
systematic part of the Job Corps accountability system. This report card is also



                                        7
used in procurement decisions. One area that this measurement system focuses
on is the centers’ ability to operate at full capacity. This is referred to as the
student OBS measure, an efficiency measure that depicts the extent to which
centers operate at full capacity. Centers operating at less than full capacity may
be required to refund to Job Corps a portion of their reimbursable expenses.

Job Corps Supervision

Reported performance also impacts Job Corps management decisions and
supervision. According to Job Corps regional management in San Francisco and
Atlanta, regional staff carefully monitor center performance for indications of poor
service quality and enrollment issues. Unreliable performance outcomes
reported by a center may enable a center to mask performance problems and
thereby avoid closer center supervision. For example, one performance indicator
that is carefully monitored for potential enrollment issues is a center’s Weekly
Termination Rate (WTR). A high WTR may indicate that students are unhappy
with the services provided at the center and are leaving prematurely. A high or
increasing WTR reported by a center may prompt a Regional Office to more
closely examine the center’s operations.

Objective and Scope

Our audit objective is to evaluate the reliability of Job Corps performance
outcomes and the processes involved in collecting, maintaining and reporting
performance information. We conducted audit work at Job Corps offices in
Washington, D.C., Atlanta, San Francisco, and Seattle. Our audit scope
focused on Job Corps activities and performance reported during January 2000
through December 2003. We conducted our fieldwork between September 2003
and March 2004.

The control weaknesses identified in this report were identified during survey
work the OIG was conducting to determine whether a comprehensive audit of
Job Corps processes for ensuring the reliability of reported performance was
warranted. Our survey work was conducted in accordance with Government
Auditing Standards issued by the Comptroller General of the United States and
included such audit steps as were determined necessary to support the
conclusions presented in this interim report.

This interim report focuses on the effectiveness of performance data validation
performed during onsite assessments conducted by Job Corps Regional Offices.
Our survey work assessing the potential risks associated with the other
components of Job Corps’ performance data validation process, such as third-
party phone surveys of youth and employers to validate job placements, are not
discussed in this interim report. The other data validation components will be
addressed, as needed, in additional audit reports resulting from our continuing
audit work in this area.



                                         8
Methodology

In addressing the audit objective, we reviewed relevant Federal laws, regulations
and guidance. We interviewed Job Corps and center management and staff.
We also obtained and analyzed regional assessment reports for 35 of the 40
centers supervised by Job Corps’ Atlanta, San Francisco, and Seattle regions.3

We conducted this audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and included such audit
steps as were determined necessary.




3
  The Seattle region was combined with the San Francisco region during our audit. In CY 2004, Job Corps
reorganized from nine to six regions.



                                                   9
                                              Attachment 2


Acronyms

CTS        -   Career Transition Service

DOL        -   United States Department of Labor

ETA        -   Employment Training Administration

GED        -   General Educational Development Certificate

OA         -   Outreach and Admissions

OBS        -   Student Onboard Strength

OIG        -   Office of Inspector General

OMS        -   Outcome Measurement System

OMS-10     -   Center Report Card

PAG        -   Program Assessment Guide

WTR        -   Weekly Termination Rate




                    10
                       Attachment 3

Agency Comments




                  11
12
13
14
